No. 20-480
IN THE

Supreme Court of the United States
DAVID BABCOCK,
Petitioner,
v.
COMMISSIONER OF SOCIAL SECURITY,
Respondent.

On Writ of Certiorari to the
United States Courts of Appeals
for the Sixth Circuit

CERTIFICATE OF SERVICE
Pursuant to Supreme Court Rules 29.3 and 29.5(b), I, Neal Kumar Katyal, a
member of the Bar of this Court, hereby certify that on May 14, 2021, a copy of the
foregoing was served by e-mail and United States mail, postage prepaid to the following:

Elizabeth B. Prelogar
Acting Solicitor General
United States Department of Justice
950 Pennsylvania Avenue, N.W.
Room 5616
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent

1

I further certify that all parties required to be served have been served.

Date: May 14, 2021

/s/ Neal Kumar Katyal
Neal Kumar Katyal

2

